Follow-up Inspection of the United States Marshals Service's Fugitive Apprehensive Program
Return
to the USDOJ/OIG Home Page
Return to the Table of Contents
Follow-up Inspection of the
United States Marshals Service'sFugitive Apprehension Program
Report Number I-2000-02January 2000
TABLE OF CONTENTS
INTRODUCTION
BACKGROUND
Responsibilities of the USMS
Organizational Structure of the Fugitive Program
Fugitive Investigations
The Quality Point Index System
Assignment of Points
The QPI System as a Management Tool
Scope and Methodology
RESULTS OF THE INSPECTION
THE USMS IS ADDRESSING NATIONAL GOALS OF THE FUGITIVE
APPREHENSION PROGRAM TO REDUCE THE BACKLOG
AND CLOSE WARRANTS MORE QUICKLY
THE USMS HAS NOT ESTABLISHED A QUANTIFIABLE GOAL
FOR APPREHENDING VIOLENT FUGITIVES, EVEN THOUGH IT
HAS DEVELOPED OFFENDER CATEGORIES IDENTIFYING
VIOLENT FUGITIVES
THE QPI SYSTEM IS NOT AN EFFECTIVE MANAGEMENT TOOL TO PRIORITIZE INVESTIGATIONS
ADDITIONAL INVESTIGATIVE SUPPORT IS STILL NEEDED
TO ASSIST DISTRICTS' FUGITIVE APPREHENSION EFFORTS
CONCLUSION AND RECOMMENDATIONS
APPENDIX I: SCOPE AND METHODOLOGY
APPENDIX II: USMS RESPONSE TO DRAFT REPORT
APPENDIX III: OFFICE OF THE INSPECTOR GENERAL'S ANALYSIS OF MANAGEMENT'S RESPONSE